APPENDIX 1

Case 1:07-cr-00012-LG-JMR Document 28 Filed 10/29/07 Page 1 of 6
AO 245B

(Rev. 06/05) Judgment in a Criminal Case
Sheet 1

UNITED STATES DISTRICT COURT
SOUTHERN

District of

MISSISSIPPI

JUDGMENT IN A CRIMINAL CASE

UNITED STATES OF AMERICA

V.

Ray Anthony Chaney

Case Number:

1:07cr12LG-JMR-001

USM Number:

08305-043

Michael E. Cox
Defendant’s Attorney

THE DEFENDANT:
pleaded guilty to count(s)
pleaded nolo contendere to count(s)
which was accepted by the court.
was found guilty on count(s)
after a plea of not guilty.

1, 2 and 3

The defendant is adjudicated guilty of these offenses:
Title & Section
18 U.S.C. 922(u)
18 U.S.C. 922(j)
18 U.S.C. 922(g)

Nature of Offense
Theft of Firearm from Federal Firearms Licensee
Possession of stolen Firearm
Possession of Firearm by Convicted Felon

The defendant is sentenced as provided in pages 2 through
the Sentencing Reform Act of 1984.

6

Offense Ended
2/22/2007
2/22/2007
2/22/2007

1
2
3

Count

of this judgment. The sentence is imposed pursuant to

The defendant has been found not guilty on count(s)
Count(s)

is

are dismissed on the motion of the United States.

It is ordered that the defendant must notify the United States attorney for this district within 30 days of any change of name, residence,
or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If ordered to pay restitution,
the defendant must notify the court and United States attorney of material changes in economic circumstances.
10/26/2007

Date of Imposition of Judgment

Signature of Judge

Louis Guirola, Jr., U.S. District Judge
Name and Title of Judge

10/26/2007
Date

Case 1:07-cr-00012-LG-JMR Document 28 Filed 10/29/07 Page 2 of 6
AO 245B

(Rev. 06/05) Judgment in Criminal Case
Sheet 2 — Imprisonment

DEFENDANT:
CASE NUMBER:

Judgment — Page

Ray Anthony Chaney
1:07cr12LG-JMR-001

2

of

6

IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of:

120 months as to Counts 1 and 2 and 235 months as to Count 3, to run concurrently and also to run concurrently with
any sentence received from the State of Mississippi on these offenses.
The court makes the following recommendations to the Bureau of Prisons:

that the defendant be housed in an institution closest to his home for visitation purposes;
that the defendant be considered for the 500-hour drug treatment program

The defendant is remanded to the custody of the United States Marshal.
The defendant shall surrender to the United States Marshal for this district:
at

a.m.

p.m.

on

.

as notified by the United States Marshal.
The defendant shall surrender for service of sentence at the institution designated by the Bureau of Prisons:
before 2 p.m. on

.

as notified by the United States Marshal.
as notified by the Probation or Pretrial Services Office.

RETURN
I have executed this judgment as follows:

Defendant delivered on
at

to
, with a certified copy of this judgment.

UNITED STATES MARSHAL

By

DEPUTY UNITED STATES MARSHAL

Case 1:07-cr-00012-LG-JMR Document 28 Filed 10/29/07 Page 3 of 6
AO 245B

(Rev. 06/05) Judgment in a Criminal Case
Sheet 3 — Supervised Release

DEFENDANT:
CASE NUMBER:

Ray Anthony Chaney
1:07cr12LG-JMR-001

Judgment—Page

3

of

6

SUPERVISED RELEASE

Upon release from imprisonment, the defendant shall be on supervised release for a term of :
three years’ supervised release as to Counts 1 and 2, and five years’ supervised release as to Count 3, all to run concurrently.

The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release from the
custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a controlled
substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
The above drug testing condition is suspended, based on the court’s determination that the defendant poses a low risk of
future substance abuse. (Check, if applicable.)
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon. (Check, if applicable.)
The defendant shall cooperate in the collection of DNA as directed by the probation officer. (Check, if applicable.)
The defendant shall register with the state sex offender registration agency in the state where the defendant resides, works, or is a
student, as directed by the probation officer. (Check, if applicable.)
The defendant shall participate in an approved program for domestic violence. (Check, if applicable.)
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance with the
Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional conditions
on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1)

the defendant shall not leave the judicial district without the permission of the court or probation officer;

2)

the defendant shall report to the probation officer and shall submit a truthful and complete written report within the first five days of
each month;

3)

the defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;

4)

the defendant shall support his or her dependents and meet other family responsibilities;

5)

the defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or other
acceptable reasons;

6)

the defendant shall notify the probation officer at least ten days prior to any change in residence or employment;

7)

the defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;

8)

the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;

9)

the defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted of a
felony, unless granted permission to do so by the probation officer;

10)

the defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation of any
contraband observed in plain view of the probation officer;

11)

the defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement officer;

12)

the defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and

13)

as directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s criminal
record or personal history or characteristics and shall permit the probation officer to make such notifications and to confirm the
defendant’s compliance with such notification requirement.

AO 245B

Case 1:07-cr-00012-LG-JMR Document 28 Filed 10/29/07 Page 4 of 6

(Rev. 06/05) Judgment in a Criminal Case
Sheet 3C — Supervised Release

DEFENDANT:
CASE NUMBER:

Ray Anthony Chaney
1:07cr12LG-JMR-001

Judgment—Page

4

of

6

SPECIAL CONDITIONS OF SUPERVISION

1. The defendant shall provide the probation office with access to any requested financial information.
2. The defendant shall participate in a program of testing and/or treatment for drug abuse, as directed by the probation office,
until such time as the defendant is released from the program by the probation office. The defendant shall contribute to the
cost of such treatment to the extent that the defendant is deemed capable by the probation office.
3. The defendant shall cooperate in establishing paternity for his children and paying any child support ordered by a court of
competent jurisdiction.
4. The defendant shall obtain a GED.

Case 1:07-cr-00012-LG-JMR Document 28 Filed 10/29/07 Page 5 of 6

AO 245B

(Rev. 06/05) Judgment in a Criminal Case
Sheet 5 — Criminal Monetary Penalties

DEFENDANT:
CASE NUMBER:

Judgment — Page

Ray Anthony Chaney
1:07cr12LG-JMR-001

5

of

6

CRIMINAL MONETARY PENALTIES

The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment

$ 100.00

$

The determination of restitution is deferred until
after such determination.

Fine

$

Restitution

. An Amended Judgment in a Criminal Case(AO 245C) will be entered

The defendant must make restitution (including community restitution) to the following payees in the amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned payment, unless specified otherwise in
the priority order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid
before the United States is paid.
Name of Payee

TOTALS

Restitution Ordered

Total Loss*

$

0

$

Priority or Percentage

0

Restitution amount ordered pursuant to plea agreement $
The defendant must pay interest on restitution and a fine of more than $2,500, unless the restitution or fine is paid in full before the
fifteenth day after the date of the judgment, pursuant to 18 U.S.C. § 3612(f). All of the payment options on Sheet 6 may be subject
to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
The court determined that the defendant does not have the ability to pay interest and it is ordered that:
the interest requirement is waived for the
the interest requirement for the

fine

fine

restitution.

restitution is modified as follows:

* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on or after
September 13, 1994, but before April 23, 1996.

AO 245B

Case 1:07-cr-00012-LG-JMR Document 28 Filed 10/29/07 Page 6 of 6

(Rev. 06/05) Judgment in a Criminal Case
Sheet 6 — Schedule of Payments

DEFENDANT:
CASE NUMBER:

Judgment — Page

Ray Anthony Chaney
1:07cr12LG-JMR-001

6

of

6

SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties are due as follows:
A

Lump sum payment of $

100.00

not later than
in accordance

C,

due immediately, balance due
D,

, or
E, or

F below; or

B

Payment to begin immediately (may be combined with

C

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after the date of this judgment; or

D

Payment in equal
(e.g., weekly, monthly, quarterly) installments of $
over a period of
(e.g., months or years), to commence
(e.g., 30 or 60 days) after release from imprisonment to a
term of supervision; or

E

Payment during the term of supervised release will commence within
(e.g., 30 or 60 days) after release from
imprisonment. The court will set the payment plan based on an assessment of the defendant’s ability to pay at that time; or

F

Special instructions regarding the payment of criminal monetary penalties:

C,

D, or

F below); or

Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal monetary penalties is due during
imprisonment. All criminal monetary penalties, except those payments made through the Federal Bureau of Prisons’ Inmate Financial
Responsibility Program, are made to the clerk of the court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties imposed.

Joint and Several
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and Several Amount,
and corresponding payee, if appropriate.

The defendant shall pay the cost of prosecution.
The defendant shall pay the following court cost(s):
The defendant shall forfeit the defendant’s interest in the following property to the United States:

Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest, (4) fine principal,
(5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of prosecution and court costs.

APPENDIX 2

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 1 of 8

IN THE UNITED STATES DISTRICT COURT
FOR THE SOUTHERN DISTRICT OF MISSISSIPPI
SOUTHERN DIVISION
UNITED STATES OF AMERICA
v.

CAUSE NO. 1:07CR12-LG-JMR

RAY ANTHONY CHANEY

MEMORANDUM OPINION AND ORDER DENYING
DEFENDANT’S MOTION FOR COMPASSIONATE RELEASE
BEFORE THE COURT is the [89] Motion for Compassionate Release filed
by Defendant, Ray Anthony Chaney. The Government filed a [94] Response in
Opposition, to which Plaintiff filed a [98] Reply. After reviewing the submissions of
the parties, the record in this matter, and the applicable law, the Court finds that
Defendant’s Motion should be denied.
BACKGROUND
On October 26, 2007, the Court sentenced Chaney to (1) 120 months of
imprisonment for violations of 18 U.S.C. §§ 922(u), theft of a firearm from a federal
firearms licensee, and 922(j), possession of a stolen firearm, and (2) a concurrent
sentence of 235 months for a violation of 18 U.S.C. § 922(g), possession of a firearm
by a convicted felon. Defendant is currently housed at Federal Correctional
Institution, Oakdale I (“FCI Oakdale I”), and he is scheduled to be released on April
5, 2023.
On May 4, 2020, Chaney filed a Motion for Compassionate Release based on
the ongoing COVID-19 pandemic and medical issues that allegedly render him more
vulnerable to the virus. On May 22, 2020, the Government filed a response in

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 2 of 8

opposition to the Motion, arguing that (1) Chaney failed to exhaust his
administrative remedies, (2) he had not demonstrated any extraordinary or
compelling reason to grant a reduction, and (3) the § 3553(a) factors weigh against
his release. Chaney then filed a reply brief on May 27, 2020.
DISCUSSION
I.

Ripeness of Defendant’s Motion
A district court may reduce a defendant’s term of imprisonment after (1) “the

defendant has fully exhausted all administrative rights to appeal a failure of the
Bureau of Prisons to bring a motion on the defendant’s behalf,” or (2) “the lapse of
30 days from the receipt of such a request by the warden of the defendant’s facility.”
18 U.S.C. § 3582(c)(1)(A). Chaney argues that he submitted a request to the
Warden on April 23, 2020 and that “the exhaustion requirement was fulfilled” on
May 23, 2020. (Reply Supp. Mot. Compassionate Release 2, ECF No. 98).1 To
support his argument, Chaney offers an “Administrative Remedy Generalized
Retrieval” which seems to show the request, carrying a timestamp of April 23, 2020.
(See Adm. Remedy Retrieval, ECF No. 89-7). There is no indication that this
request has been answered. Therefore, as 30 days have now passed, the Court may
consider Chaney’s Motion on the merits. United States v. Jimison, No. 4:08-CR-11DPJ-LRA, 2020 WL 3213429, at *2 (S.D. Miss. Jun. 15, 2020) (considering a motion

In his original brief, Chaney alleged that his request was filed on April 22, 2020.
(Mot. Compassionate Release 7, ECF No. 89). The cited exhibit seems to carry an
April 23 timestamp (See Adm. Remedy Retrieval, ECF No. 89-7), but the Court
concludes that Chaney has exhausted his administrative remedies under either
date.
1

-2-

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 3 of 8

for sentence reduction even though the defendant “filed his motion before
exhausting his administrative remedies,” as the period elapsed in the intervening
time).
II.

Merits of Defendant’s Motion
First, to the extent Defendant requests that the Court “order Mr. Chaney to

serve the remainder of his Bureau of Prisons (‘BOP’) sentence on home
confinement” (Mot. Compassionate Release 1, ECF No. 89), the Court notes that it
lacks the authority to order home confinement. See 18 U.S.C. § 3621(b) (providing
that “[t]he Bureau of Prisons shall designate the place of the prisoner’s
imprisonment,” taking into account his security designation, his programmatic
needs, his mental and medical health needs, his faith-based needs, the proximity to
his primary residence, BOP’s security concerns, and the recommendations of the
sentencing court); United States v. Adcock, No. 3:19-CR-00106, 2020 WL 2043811,
at *3 (W.D. La. Apr. 28, 2020).
Second, to the extent Defendant requests a sentence reduction, he is correct
that a court can reduce a sentence “if it finds that extraordinary and compelling
reasons warrant such a reduction” and “that such a reduction is consistent with
applicable policy statements issued by the Sentencing Commission.” 18 U.S.C. §
3582(c)(1)(A). The court also must consider the factors set forth in 18 U.S.C. §
3553(a), to the extent they are applicable. Id.
The Sentencing Commission has not issued a relevant policy statement since
18 U.S.C. § 3582(c)(1)(A) was amended to permit defendants to file motions for

-3-

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 4 of 8

compassionate release.2 Some courts continue to obtain guidance from the prior
policy statement, U.S.S.G. § 1B1.13, while other courts have determined that they
are no longer bound by the prior policy statement. Compare United States v. York,
Nos. 3:11CR76, 3:12CR145, 2019 WL 3241166, at *4 (E.D. Tenn. July 18, 2019),
with United States v. Brown, 411 F. Supp. 3d 446, 451 (S.D. Iowa 2019). Regardless
of whether the policy statement remains binding, it continues to provide helpful
guidance for determining whether a defendant is entitled to compassionate release.
The policy statement provides that “extraordinary and compelling reasons”
for release exist if the defendant is suffering from a serious physical or medical
condition “that substantially diminishes the ability of the defendant to provide selfcare within the environment of a correctional facility and from which he or she is
not expected to recover.” U.S.S.G. § 1B1.13 cmt. n.1(A)(ii).
The policy statement also provides that the defendant should not pose “a
danger to the safety of any other person or to the community.” U.S.S.G. §
1B1.13(2). To determine whether a defendant poses a danger, courts consider the
nature and circumstances of the offense charged and the weight of the evidence
against the defendant, as well as the defendant’s physical and mental condition,
family ties, employment, criminal history, and drug and alcohol use history. 18
U.S.C. § 3142(g). The nature and seriousness of the danger to any person or the

Prior to enactment of the First Step Act, only the Bureau of Prisons could file
motions for compassionate release.
2

-4-

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 5 of 8

community that would be posed by the defendant’s release is also an important
factor. Id.
Defendant’s Motion for Compassionate Release, like countless others around
the country, is premised on the ongoing COVID-19 pandemic, which “has already
spread to FCI Oakdale I.” (Mot. Compassionate Release 23, ECF No. 89).
Defendant, a 59-year-old male, further cites his type II diabetes, epilepsy,
hypertension, and hepatitis C as medical problems which could potentially leave
him more vulnerable to the virus. These conditions are present in Chaney’s medical
records. (See Medical Records, ECF No. 89-3).
Publications by the Centers for Disease Control and Prevention (CDC) have
recognized type II diabetes as a condition which “may put people at higher risk of
severe illness from COVID-19.” Groups at Higher Risk for Severe Illness, Ctrs. for
Disease Control & Prevention, https://www.cdc.gov/coronavirus/2019-ncov/needextra-precautions/groups-at-higher-risk.html#diabetes (retrieved June 16, 2020).
The CDC has not recognized hypertension on its own as an underlying medical
condition that might cause a person to be at higher risk for severe illness from
COVID-19. Frequently Asked Questions, COVID-19 and Hypertension, Ctrs. for
Disease Control & Prevention, https://www.cdc.gov/coronavirus/2019ncov/faq.html#COVID-19-and-Hypertension (retrieved June 16, 2020).
Nevertheless, high blood pressure can increase a patient’s risk of becoming
seriously ill from COVID when combined with other conditions, such as diabetes.
See id. The Court can find no indication that the CDC considers Chaney’s other

-5-

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 6 of 8

medical conditions—epilepsy and hepatitis C—as increasing either risk or severity
of COVID-19.
Preexisting medical conditions that place a defendant at increased risk for
serious illness from COVID-19 are not in and of themselves sufficient to establish
extraordinary and compelling reasons justifying a reduction in sentence. See, e.g.,
United States v. Oliejniczak, No. 1:15-CR-142-EAW, 2020 WL 2846591, at *4
(W.D.N.Y. June 2, 2020); see also United States v. Denault, No. 11 Crim. 121-7
(GBD), 2020 WL 2836780, at *2 (S.D.N.Y. June 1, 2020); United States v. Colonna,
No. 18-cr-60012-BLOOM, 2020 WL 2839172, at *4 (S.D. Fla. June 1, 2020).
However, Defendant is correct that the Bureau of Prisons (BOP) reports at least
thirty inmates and ten staff have confirmed active COVID-19 cases at FCI Oakdale
I, where he is housed. See COVID-19 Cases, Bureau of Prisons,
https://www.bop.gov/coronavirus/ (last visited June 8, 2020).
The Eastern District of Louisiana found extraordinary and compelling
reasons to release a 63-year-old inmate with relevant underlying medical conditions
from an Oakdale facility. United States v. Prasad, No. 19-CR-71, 2020 WL 2850147,
at *3 (E.D. La. Jun. 2, 2020). The Northern District of Texas ordered a 54-year-old
inmate with “asthma, bronchitis, hypertension,” and other conditions released
based in part on ‘the rapid spread of COVID-19 at FCI Oakdale.’” United States v.
Heitman, No. 3:95-CR-0160(4)-G, 2020 WL 3163188, at *4 (N.D. Tex. Jun. 12, 2020)
(referring to United States v. Lee, No. 3:07-CR-289-M-2 (N.D. Tex. Apr. 23, 2020)).
Defendant reports that he has no disciplinary infractions and has served 72.8

-6-

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 7 of 8

percent of his term. He also cites his completion of courses while incarcerated, as
well as a re-entry plan upon release, to support his Motion.
Although much weight should be placed on the Defendant’s medical condition
and incarceration at FCI Oakdale, the Court agrees with the Government that “the
§ 3553(a) factors strongly disfavor a sentence reduction.” (Govt.’s Resp. Def.’s Mot.
Reduce Sent. 19, ECF No. 94). The § 3553 sentencing factors include the nature
and circumstances of the offense and the history of the defendant. The Court may
also consider the need for the sentence imposed to reflect the seriousness of the
offense, afford adequate deterrence, protect the public, and provide the defendant
with needed education, training, and treatment. 18 U.S.C. § 3553(a). Particularly,
the Court is concerned about the lengthy criminal history of the defendant, which
includes repeated convictions for burglary, larceny, domestic violence, assault, and
other crimes. The Court finds that releasing Defendant at this time would not
afford adequate deterrence to criminal conduct, nor protect the public from further
potential offenses of the Defendant. Finally, a reduction of Defendant’s sentence
would not reflect the seriousness of his crimes, as he has already benefitted from his
multiple sentences being made to run concurrently with one another.
IT IS, THEREFORE, ORDERED AND ADJUDGED that the [89] Motion
to Reduce Sentence filed by the defendant, Ray Anthony Chaney, is hereby
DENIED.

-7-

Case 1:07-cr-00012-LG-JMR Document 99 Filed 06/17/20 Page 8 of 8

SO ORDERED AND ADJUDGED this the 17th day of June, 2020.
s/

Louis Guirola, Jr.

LOUIS GUIROLA, JR.
UNITED STATES DISTRICT JUDGE

-8-

APPENDIX 3

Case: 20-60498

Document: 00515583161

Page: 1

Date Filed: 09/29/2020

United States Court of Appeals
for the Fifth Circuit

United States Court of Appeals
Fifth Circuit

FILED

September 29, 2020

No. 20-60498
Summary Calendar

Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Ray Anthony Chaney, also known as Ray Anthony Bradley,
also known as Ray Chaney, also known as Ray A. Chaney, also known
as Ray N. Bradley,
Defendant—Appellant.
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:07-CR-12-1
Before Wiener, Southwick, and Duncan, Circuit Judges.
Per Curiam:*
Ray Anthony Chaney, federal prisoner # 08305-043, appeals the
district court’s denial of his motion for a compassionate release reduction of
sentence pursuant to 18 U.S.C. § 3582(c)(1)(A)(i). In that motion, Chaney
*

Pursuant to 5th Circuit Rule 47.5, the court has determined that this
opinion should not be published and is not precedent except under the limited
circumstances set forth in 5th Circuit Rule 47.5.4.

Case: 20-60498

Document: 00515583161

Page: 2

Date Filed: 09/29/2020

No. 20-60498

argued that he should be released because Covid-19 was spreading at the
Oakdale I Federal Correctional Institution where he is incarcerated and his
age and health conditions, including Type II diabetes, put him at an increased
risk of serious illness or death if he were to contract the virus.
On appeal, Chaney argues that the district court abused its discretion
in determining that the 18 U.S.C. § 3553(a) factors weighed against granting
a sentence reduction. 1 He contends that those factors supported his request
for a sentence reduction because he is an older, non-violent inmate, has
completed numerous self-improvement courses since he had been in prison,
has had no prison disciplinary infractions, and has a reentry plan. In denying
Chaney’s motion, the district court considered those facts but determined
that Chaney’s lengthy criminal history and other sentencing concerns
militated against granting relief. Having reviewed the district court’s reasons
for denying Chaney’s motion to reduce his sentence, we find no abuse of
discretion. The district court did not base its decision on an error of law or a
clearly erroneous assessment of the evidence. See United States v. Chambliss,
948 F.3d 691, 693 (5th Cir. 2020). Chaney’s disagreement with how the
district court balanced the § 3553(a) factors does not present a sufficient
ground for reversal. See id. at 694.
Nor has Chaney shown a ground for reversal based on the district
court’s determination that it lacked the authority to order that he serve the
remainder of his sentence of imprisonment under home confinement. The
Bureau of Prisons has the sole authority to designate a prisoner’s place of
incarceration. 18 U.S.C. § 3621(b); United States v. Voda, 994 F.2d 149, 151-

1

The district court implicitly recognized that Chaney had established
“extraordinary and compelling reasons” for his release based on his risk of complications
from Covid-19, and the Government does not contest that point. Thus, that issue is not
before the court.

2

Case: 20-60498

Document: 00515583161

Page: 3

Date Filed: 09/29/2020

No. 20-60498

52 (5th Cir. 1993). Chaney’s assertion that the district court could have
achieved a similar remedy by reducing his sentence of imprisonment to time
served and ordering home confinement as a condition of probation or
supervised release has no bearing on his appeal because the district court
determined that a reduction of sentence was not warranted.
The district court’s judgment is AFFIRMED.

3

Case: 20-60498

Document: 00515583195

Page: 1

Date Filed: 09/29/2020

United States Court of Appeals
for the Fifth Circuit
___________

United States Court of Appeals
Fifth Circuit

FILED

No. 20-60498
Summary Calendar
___________

September 29, 2020
Lyle W. Cayce
Clerk

United States of America,
Plaintiff—Appellee,
versus
Ray Anthony Chaney, also known as Ray Anthony Bradley,
also known as Ray Chaney, also known as Ray A. Chaney, also known
as Ray N. Bradley,
Defendant—Appellant.
____________________________
Appeal from the United States District Court
for the Southern District of Mississippi
USDC No. 1:07-CR-12-1
____________________________
Before Wiener, Southwick, and Duncan, Circuit Judges.
JUDGMENT
This cause was considered on the record on appeal and the briefs on
file.
IT IS ORDERED and ADJUDGED that the judgment of the
District Court is AFFIRMED.

APPENDIX 4

United States v. Chaney, --- Fed.Appx. ---- (2020)

2020 WL 5805468
Only the Westlaw citation is currently available.
This case was not selected for
publication in West's Federal Reporter.
See Fed. Rule of Appellate Procedure 32.1
generally governing citation of judicial decisions
issued on or after Jan. 1, 2007. See also
U.S.Ct. of App. 5th Cir. Rules 28.7 and 47.5.
United States Court of Appeals, Fifth Circuit.
UNITED STATES of America, Plaintiff—Appellee,
v.
Ray Anthony CHANEY, also known as Ray
Anthony Bradley, also known as Ray Chaney,
also known as Ray A. Chaney, also known
as Ray N. Bradley, Defendant—Appellant.
No.
20
60498
|
Summary Calendar
|
FILED September 29, 2020
Appeal from the United States District Court for the Southern
District of Mississippi, USDC No. 1:07-CR-12-1
Attorneys and Law Firms
Gaines H. Cleveland, Assistant U.S. Attorney, U.S. Attorney's
Office, Southern District of Mississippi, Gulfport, MS, for
Plaintiff-Appellee
Thomas Creagher Turner, Jr., Esq., Abby Webber Brumley,
Esq., Assistant Federal Public Defender, Federal Public
Defender's Office, Southern District of Mississippi, Jackson,
MS, for Defendant-Appellant
Before Wiener, Southwick, and Duncan, Circuit Judges.
Opinion
Per Curiam: *
*

Pursuant to 5th Circuit Rule 47.5, the court
has determined that this opinion should not be
published and is not precedent except under the

limited circumstances set forth in 5th Circuit Rule
47.5.4.
*1 Ray Anthony Chaney, federal prisoner # 08305-043,
appeals the district court's denial of his motion for a
compassionate release reduction of sentence pursuant to
18 U.S.C. § 3582(c)(1)(A)(i). In that motion, Chaney
argued that he should be released because Covid-19 was
spreading at the Oakdale I Federal Correctional Institution
where he is incarcerated and his age and health conditions,
including Type II diabetes, put him at an increased risk of
serious illness or death if he were to contract the virus.
On appeal, Chaney argues that the district court abused its
discretion in determining that the

18 U.S.C. § 3553(a)

factors weighed against granting a sentence reduction. 1
He contends that those factors supported his request for a
sentence reduction because he is an older, non-violent inmate,
has completed numerous self-improvement courses since he
had been in prison, has had no prison disciplinary infractions,
and has a reentry plan. In denying Chaney's motion, the
district court considered those facts but determined that
Chaney's lengthy criminal history and other sentencing
concerns militated against granting relief. Having reviewed
the district court's reasons for denying Chaney's motion to
reduce his sentence, we find no abuse of discretion. The
district court did not base its decision on an error of law or
a clearly erroneous assessment of the evidence. See United
States v. Chambliss, 948 F.3d 691, 693 (5th Cir. 2020).
Chaney's disagreement with how the district court balanced
the
§ 3553(a) factors does not present a sufficient ground
for reversal. See id. at 694.
1

The district court implicitly recognized that Chaney
had established “extraordinary and compelling
reasons” for his release based on his risk of
complications from Covid-19, and the Government
does not contest that point. Thus, that issue is not
before the court.

Nor has Chaney shown a ground for reversal based on
the district court's determination that it lacked the authority
to order that he serve the remainder of his sentence of
imprisonment under home confinement. The Bureau of
Prisons has the sole authority to designate a prisoner's place
of incarceration.
18 U.S.C. § 3621(b);
United States
v. Voda, 994 F.2d 149, 151-52 (5th Cir. 1993). Chaney's
assertion that the district court could have achieved a similar

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

United States v. Chaney, --- Fed.Appx. ---- (2020)

remedy by reducing his sentence of imprisonment to time
served and ordering home confinement as a condition of
probation or supervised release has no bearing on his appeal
because the district court determined that a reduction of
sentence was not warranted.

End of Document

The district court's judgment is AFFIRMED.
All Citations
--- Fed.Appx. ----, 2020 WL 5805468 (Mem)

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

